No. __-___

In the Supreme Court of the United States
____________________________________________________
DAVID A. JONES, JONATHAN KINNEY, AND JOSHUA MORRIS,
Applicants,
v.
MATTHEW DUNLAP, IN HIS OFFICIAL CAPACITY AS THE MAINE SECRETARY OF STATE,
Respondents,
and
THE COMMITTEE FOR RANKED CHOICE VOTING, CLARE HUDSON PAYNE, PHILIP STEELE,
FRANCES M. BABB,
Intervenor-Respondents.
____________________________________________________________________________
APPENDIX TO EMERGENCY APPLICATION FOR INJUNCTION
PENDING CERTIORARI REVIEW
___________________________________________________________________________
Patrick Strawbridge
Counsel of Record
CONSOVOY MCCARTHY PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
(703) 243-9423
patrick@consovoymccarthy.com
Daniel Shapiro
CONSOVOY MCCARTHY PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
daniel@consovoymccarthy.com

TABLE OF CONTENTS
Supreme Judicial Court Order Denying Stay ……………………………………App. 1
Supreme Judicial Court Order Vacating Superior Court Judgment …………App. 9
Supreme Judicial Court Order Declaring Automatic Stay …………………….App. 33
Superior Court Order Vacating Secretary’s Determination ………………......App. 41

MAINE SUPREME JUDICIAL COURT
Decision:
2020 ME 117
Docket:
Cum-20-227
Argued:
October 1, 2020
Decided:
October 1, 2020
Panel:

Reporter of Decisions

MEAD, GORMAN, JABAR, HUMPHREY, and HORTON, JJ.

DAVID A. JONES
v.
SECRETARY OF STATE et al.
PER CURIAM
[¶1] David A. Jones, Jonathan Kinney, and Joshua Morris (collectively,
“Jones”) have filed a motion to stay the effect of the mandate in our decision
issued in this matter on September 22, 2020, Jones v. Sec’y of State, 2020 ME
113, --- A.3d ---, pending their petition for a writ of certiorari to the Supreme
Court of the United States. See M.R. App. P. 14(a)(3).1 The Committee for
Ranked Choice Voting and three individuals (collectively, “Committee”) and the
Secretary of State oppose the motion. Because we conclude that Jones has not
satisfied the test for us to stay the effect of the mandate, we deny the motion.

We note that the Supreme Court also has the authority, by statute and rule, to grant a stay. See
28 U.S.C.S. § 2001(f) (LEXIS through Pub. L. No. 116-158); Sup. Ct. R. 23.
1

App. 1

2

[¶2] A request for a stay in the Law Court is “subject to the same
standards for obtaining injunctive relief that are applied in the trial courts.” Me.
Equal Justice Partners v. Commissioner, 2018 ME 127, ¶ 31, 193 A.3d 796. “To
obtain a stay, the moving party must demonstrate that (1) it will suffer
irreparable injury if the injunction is not granted; (2) such injury outweighs any
harm which granting the injunctive relief would inflict on the other party; (3) it
has a likelihood of success on the merits (at most, a probability; at least, a
substantial possibility); and (4) the public interest will not be adversely
affected by granting the injunction.” Id. (quotation marks omitted).
A.

Irreparable Injury, Harm to Other Parties, and the Public Interest
[¶3] Jones argues that he will suffer irreparable harm if a stay is not

granted because the ranked-choice-voting law will be in effect for the
November election despite what he contends are an adequate number of
signatures in support of the people’s veto petition. The Secretary of State
indicates, with support from the affidavit of the Deputy Secretary of State in
charge of the Bureau of Corporations, Elections and Commissions, that he has
already finalized templates and printed more than a million ballots. The
Secretary of State further represents, also with support from the affidavit, that
ranked-choice ballots have already been delivered to voters serving in the

App. 2

3

military and to civilian voters living outside the United States, and that more
than 1,800 ballots have already been returned by voters. Cf. Knutson v. Dep’t of
Sec’y of State, 2008 ME 129, ¶ 14, 954 A.2d 1054 (authorizing a stay when ballot
templates had not been finalized). Jones does not dispute these facts.
[¶4] The public has a strong interest in using ranked-choice voting if—
as the Secretary of State determined and we affirmed—the proponents of the
people’s veto did not obtain enough valid signatures and the Act to Implement
Ranked-choice Voting for Presidential Primary and General Elections in Maine,
P.L. 2019, ch. 539, is legally in effect.2 See Jones, 2020 ME 113, ¶ 35, --- A.3d ---.
Voting has begun with voters using this method, and there is a strong public
interest in not changing the rules for voting at this late time.3 See Purcell v.
Gonzalez, 549 U.S. 1, 4-6 (2006).

The effective date for the Act, absent a valid people’s veto petition, would have been June 16,
2020—ninety days after the adjournment of the Second Regular Session of the Maine Legislature.
See Me. Const. art. IV, pt. 3, § 16. Because the petition for a people’s veto was submitted before that
date, the effective date of the Act is September 23, 2020, the day following our mandate affirming the
Secretary of State’s determination that there were insufficient valid signatures. See Me. Const. art. IV,
pt. 3, § 17, cl. 2; 21-A M.R.S. § 905 (2020).
2

Although Jones contends that, even if our decision were vacated, the ranked-choice ballots could
be tabulated without using ranked-choice voting by counting only the votes marked for the voter’s
first choice, the public would—in that situation—have been asked to vote on a ballot that was
misleading or confusing and did not comply with all dictates of 21-A M.R.S. § 601 (2020), including
the requirement that the ballot state how to designate choices, with special instructions for
ranked-choice contests, id. § 601(2)(A).
3

The ballot samples supplied by the Secretary of State include the following instructions for the
November ranked-choice ballots:

App. 3

4

[¶5] Admittedly, if the ranked-choice law were not properly in effect
because of a valid people’s veto petition,4 the public would have an interest in
using non-ranked-choice voting and having the opportunity to vote on the
people’s veto question. The balance of harms and the public interest, however,
weigh against our grant of Jones’s requested stay.
B.

Likelihood of Success on the Merits
[¶6] We next consider Jones’s likelihood of success on the merits. Jones

argues that our decision, which applies a standard less stringent than strict
scrutiny, stands in contrast to federal courts’ holdings that strict scrutiny
applies to circulator requirements. Jones also contends that, even applying the
standard that we used, the requirement in Maine law that petition circulators

To vote, fill in the oval like this
To rank your candidate choices, fill in the oval:
• In the 1st column for your 1st choice candidate.
• In the 2nd column for your 2nd choice candidate, and so on.
Continue until you have ranked as many or as few candidates as you like.
Fill in no more than one oval for each candidate or column.
To rank a Write-in candidate, write the person’s name in the write-in space and fill
in the oval for the ranking of your choice.
4 The people’s veto petition was submitted to the Secretary of State on June 15, 2020, within the
time allowed by the Maine Constitution, and if the petition were valid, the Act would not take effect
unless and until the voters rejected the people’s veto question. See Me. Const. art. IV, pt. 3, § 17, cls. 1,
3.

App. 4

5

be registered to vote in the municipalities where they reside, see Me. Const.
art. IV, pt. 3, § 20; 21-A M.R.S. § 903-A (2020), is overly restrictive of First
Amendment rights because an affidavit would adequately ensure that a person
was a resident in Maine at the time of petition circulation.
[¶7] In support of his position that our legal reasoning conflicts with
federal case law, Jones cites cases that are distinguishable from the matter
before us because the courts in those cases did not review registration
requirements in a jurisdiction in which the residency requirement had already
been upheld in a strict-scrutiny analysis.5 See Hart v. Sec’y of State, 1998 ME
189, ¶ 13, 715 A.2d 165, cert. denied, 525 U.S. 1139 (1999) (holding that Maine’s
residency requirement survives strict scrutiny). The cases that Jones cites in
his motion apply strict scrutiny in their review of residency requirements—a
review that we already performed in Hart, 1998 ME 189, 715 A.2d 165. See
Libertarian Party of Va. v. Judd, 718 F.3d 308, 311 (4th Cir. 2013) (reviewing a
residency requirement for petition circulation); Yes on Term Limits, Inc. v.
Savage, 550 F.3d 1023, 1025 (10th Cir. 2008) (reviewing “Oklahoma’s ban on

Jones’s argument for strict-scrutiny review rests on a mistaken characterization of the burden
that Maine’s laws impose upon circulators; it focuses narrowly on the severe consequence of failing
to comply with the election laws in this particular case rather than on the burden of compliance with
those laws, which was the dominant focus of the Court’s decisions in Meyer v. Grant, 486 U.S. 414,
422-25 (1988), Buckley v. American Constitutional Law Foundation, 525 U.S. 182, 191-97 (1999), and
similar cases.
5

App. 5

6

non-resident petition circulators”); Nader v. Brewer, 531 F.3d 1028, 1030
(9th Cir. 2008) (reviewing the “requirement that circulators of nomination
petitions be residents of Arizona”); Lerman v. Bd. of Elections, 232 F.3d 135, 139
(2d Cir. 2000) (reviewing a residency requirement for signature witnesses).
Thus, we are not persuaded that this line of cases undermines our opinion,
Jones, 2020 ME 113, --- A.3d ---, which is supported by Supreme Court
precedent. See Buckley v. Am. Const. L. Found., Inc., 525 U.S. 182, 186-87, 192-97
(1999); McIntyre v. Ohio Elections Comm’n, 514 U.S. 334, 344-45 (1995);
Burdick v. Takushi, 504 U.S. 428, 433-34 (1992); Anderson v. Celebrezze, 460 U.S.
780, 788-90 (1983); Storer v. Brown, 415 U.S. 724, 730 (1974).
[¶8] As to Jones’s argument that an affidavit alone would be sufficient to
establish residency, we reiterate the significance of simple and timely
verification of residency. See Jones, 2020 ME 113, ¶ 33, --- A.3d ---. In Maine,
local registrars perform the task of residency verification, requiring “proof of
identity and residency” when a person registers to vote—a task that the
Secretary of State would not have the time to perform when reviewing petitions
within the truncated timeline set forth by statute. 21-A M.R.S. § 121(1-A)
(2020); see 21-A M.R.S. §§ 111(3), (4), 112, 121, 122, 905(1) (2020). As we
stated in our opinion, because we upheld the residency requirement in Hart,

App. 6

7

1998 ME 189, ¶ 13, 715 A.2d 165, Maine has not violated the First Amendment
by including in the Maine Constitution and elections statutes “a simple and,
more importantly, verifiable way for the Secretary of State to determine a
person’s residency in Maine at the time of circulation of a petition.” Jones, 2020
ME 113, ¶¶ 33-34, --- A.3d ---.
[¶9] We do not consider it likely that Jones will prevail in his petition to
the Supreme Court, especially given the limited record presented with respect
to the First Amendment challenge through judicial review of the Secretary of
State’s decision and the ongoing printing, distribution, and return of
ranked-choice ballots. We cannot conclude that Jones has established at least
“a substantial possibility” of success on the merits of either his petition for a
writ of certiorari or the review that would follow if a writ of certiorari were
granted.6 Me. Equal Justice Partners, 2018 ME 127, ¶ 31, 193 A.3d 796.
[¶10] Finally, although in Knutson, 2008 ME 129, ¶ 14, 954 A.2d 1054,
we granted a partial stay of our mandate for the brief, finite period preceding
the creation of final ballot templates, the templates at issue here have already

The Committee has argued that Jones lacks standing to petition for a writ of certiorari because
21-A M.R.S. § 905(2) (2020) allows an appeal by any signer of an invalidated petition without
requiring a showing of a particularized injury. It is arguable, however, that the Legislature, by
enacting section 905(2), established a particularized injury under state law. Because we need not
decide this issue to rule on the motion before us, we decline to opine on the question.
6

App. 7

8

been produced, more than a million ballots have been printed, and in some
instances, ballots have been sent out to, and returned by, voters. We decline to
stay the effect of our issued mandate in these circumstances.
The entry is:
Motion to stay the effect of the mandate denied.

Patrick N. Strawbridge, Esq. (orally), Consovoy McCarthy PLLC, Boston,
Massachusetts, for movant-appellees David A. Jones et al.
Aaron M. Frey, Attorney General, and Phyllis Gardiner, Asst. Atty. Gen. (orally),
Office of the Attorney General, Augusta, for respondent-appellant Secretary of
State
James G. Monteleone, Esq. (orally), and Matthew J. Saldaña, Esq., Bernstein
Shur, Portland, for respondent-appellants The Committee for Ranked Choice
Voting et al.
Cumberland County Superior Court docket number AP-20-16
FOR CLERK REFERENCE ONLY

App. 8

MAINE SUPREME JUDICIAL COURT
Decision:
2020 ME 113
Docket:
Cum-20-227
Argued:
September 15, 2020
Decided:
September 22, 2020
Panel:

Reporter of Decisions

MEAD, GORMAN, JABAR, HUMPHREY, and HORTON, JJ.

DAVID A. JONES et al.
v.
SECRETARY OF STATE et al.
PER CURIAM
[¶1] Intervenors The Committee for Ranked Choice Voting and three
individuals (collectively, “Committee”) and the Secretary of State appeal from a
judgment of the Superior Court (Cumberland County, McKeon, J.) vacating the
Secretary of State’s determination that an inadequate number of valid
signatures had been submitted to place on the ballot a people’s veto of An Act
to Implement Ranked-choice Voting for Presidential Primary and General
Elections in Maine, P.L. 2019, ch. 539. See Me. Const. art. IV, pt. 3, § 17. Upon a
petition for review of the Secretary of State’s decision filed by David A. Jones,
Jonathan Kinney, and Joshua Morris (collectively, “Jones”), the court concluded
that it was unconstitutional for the State to require that every circulator who
collected signatures be registered to vote in the circulator’s municipality of

App. 9

2

residence at the time of circulation. On the limited record presented to us, we
conclude that Jones has not demonstrated that the requirement in Maine’s
Constitution and statutes that a circulator be a registered voter in the
circulator’s municipality of residence when collecting signatures violates the
First Amendment. Accordingly, we vacate the court’s judgment.1
I. BACKGROUND
[¶2]

On July 15, 2020, the Secretary of State issued a written

determination of the validity of a petition for the people’s veto of An Act to
Implement Ranked-choice Voting for Presidential Primary and General
Elections in Maine, P.L. 2019, ch. 539.2 He concluded that an insufficient
number of valid signatures had been submitted in support of the petition.3 See
Me. Const. art. IV, pt. 3, § 17, cl. 1 (requiring “not . . . less than 10% of the total
vote for Governor cast in the last gubernatorial election preceding the filing of
such petition” for a people’s veto to be placed on the ballot). For the petition to

1 We need not, and do not, reach the parties’ additional arguments regarding alternative bases for
invalidating certain signatures. Nor do we entertain Jones’s argument that the Superior Court erred
in affirming the Secretary of State’s determination that certain signatures submitted to the registrar
in Freeport were invalid. Jones did not file a cross-appeal and therefore cannot raise claims of error.
See Johnson v. Home Depot USA, Inc., 2014 ME 140, ¶ 5 n.1, 106 A.3d 401.
2

The signed petitions had been submitted to the Secretary of State on June 15, 2020.

Because the Maine Constitution defines the term “written petition” as “one or more petitions
written or printed,” the term “petition” describes both the individual papers bearing signatures and
the collection of those individual papers that constitutes the proponent’s request to the Secretary of
State that an act of the Legislature be “referred to the people.” Me. Const. art. IV, pt. 3, § 17, cl. 1;
Me. Const. art. IV, pt. 3, § 20 (emphasis added).
3

App. 10

3

be valid, 63,067 signatures were necessary, and the Secretary of State
determined that only 61,334 of the signatures submitted were valid.
[¶3] On July 27, 2020, Jones filed a petition for review of the Secretary of
State’s final agency action in the Superior Court. See 21-A M.R.S. § 905(2)
(2020); M.R. Civ. P. 80C. The next day, Jones filed a motion requesting that the
court remand the matter for the Secretary of State to take additional evidence
to resolve multiple factual discrepancies. The Committee moved to intervene.
[¶4] On August 3, the court (McKeon, J.) granted the motion to intervene
and held a status conference. By agreement of the parties, the court granted
the motion to remand and ordered the Secretary of State to take additional
evidence and reconsider his decision, with a supplement to his determination
and the administrative record to be filed by August 11, and also ordered a
schedule of briefing that would conclude on August 21.4
[¶5] On August 12, 2020, the Secretary of State issued an amended
determination of the validity of the petition in which he concluded, among other
things, that the signatures submitted from some signature collectors were not
valid because those collectors had not been registered voters on the voting lists

The court later modified the order based on the parties’ agreement to allow the Secretary of
State an additional day to file his materials.
4

App. 11

4

of their municipalities of residence at the time that they collected signatures.5
See Me. Const. art. IV, pt. 3, § 20; 21-A M.R.S. § 903-A (2020); id. § 903-A(4)(C).
The Secretary of State concluded that some other signatures that he had
originally determined to be invalid were valid but still determined that there
were insufficient valid signatures—only 61,292—for the people’s veto to be
placed on the ballot.
[¶6] On August 21, after receiving briefs, the court held a telephonic
hearing and remanded the matter to the Secretary of State to complete an
investigation related to one town office by noon on August 24, with briefs to be
submitted from the other parties on the same day. The court also ordered that
the parties would have until August 24 to submit briefs on the effect of Buckley
v. American Constitutional Law Foundation, Inc., 525 U.S. 182 (1999), on the
validity of the signatures that the Secretary of State had disqualified because
the signature collectors were not registered as voters in their municipalities of
residence at the time they collected signatures.

The Secretary of State determined that one of the two people who circulated the petitions that
are now in dispute had changed her residence for purposes of her driver’s license in the late summer
of 2019 but had not registered to vote in that municipality until after collecting petition signatures.
Both of the individuals swore by affidavit that they were registered Maine voters; one averred that
she had voted in 2016 and 2018 elections, and the other averred that she was an “active Maine voter”
who had been registered since 1999.
5

App. 12

5

[¶7] The parties submitted all required materials on August 24, and the
Secretary of State additionally filed a supplement to his amended
determination of the validity of the petition for a people’s veto. The Secretary
of State still concluded—although by a smaller margin—that there were not
enough valid signatures for the people’s veto to be placed on the ballot. He
determined that only 62,101 of the signatures submitted were valid—966
signatures short of the necessary 63,067.
[¶8] On August 24, 2020, the court entered a judgment vacating the
Secretary of State’s determination that insufficient signatures had been
collected. The court concluded that Buckley rendered the requirement that a
circulator be a registered voter at the time he or she collected signatures to be
a violation of the First Amendment of the United States Constitution and held
that 988 signatures had been improperly invalidated on the basis of the
circulator’s registration status.
[¶9] Both the Secretary of State and the Committee appealed. See 21-A
M.R.S. § 905(3) (2020); M.R. App. P. 2A, 2B. The Committee moved in the
Superior Court for “clarification” of whether an automatic stay was in place.
Jones opposed the motion, and the court ordered that it “would take no action
on [the] motion.” The Secretary of State and the Committee then filed motions
with us to stay the execution of the Superior Court’s judgment. We dismissed

App. 13

6

the motions as moot after concluding that Rule 62(e) imposed an automatic
stay on the Superior Court’s judgment pending appeal. See Jones v. Sec’y of State,
2020 ME 111, --- A.3d ---. The merits of the appeals are now before us.
II. DISCUSSION
[¶10] In this opinion, we consider (A) whether Maine’s Constitution and
statutes require circulators to be registered voters in the municipality where
they reside at the time they collect signatures on a people’s veto petition and
(B) if they do so require, whether, on the record presented, the registration
requirement violated the First Amendment to the United States Constitution.
A.

Constitutional and Statutory Requirement of Circulator Registration
[¶11]

We interpret Maine’s Constitution and statutes de novo as

questions of law. See Avangrid Networks, Inc. v. Sec’y of State, 2020 ME 109,
¶ 13, --- A.3d ---; Reed v. Sec’y of State, 2020 ME 57, ¶ 14, --- A.3d ---. We will
interpret the constitutional or statutory provision according to its plain
meaning if the language is unambiguous. See Avangrid Networks, Inc., 2020 ME
109, ¶ 14, --- A.3d ---; Reed, 2020 ME 57, ¶ 14, --- A.3d ---.
[¶12] As to the constitution, “[i]f the provision is ambiguous, we [will]
determine the meaning by examining the purpose and history surrounding the
provision.” Avangrid Networks, Inc., ¶ 14, --- A.3d --- (quotation marks omitted).
With respect to the language of a statute within the expertise of an

App. 14

7

administering agency, however, if the provision is ambiguous, meaning that it
is “reasonably susceptible to different interpretations,” we defer to the agency’s
reasonable construction. Reed, 2020 ME 57, ¶ 14, --- A.3d --- (quotation marks
omitted). We have held before that the Secretary of State “is the constitutional
officer entrusted with administering—and having expertise in—the laws
pertaining to the direct initiative process.” Id. ¶ 18. As we do with respect to
the direct initiative process, we accord deference to the Secretary of State’s
reasonable interpretation of an ambiguous statute governing the people’s veto
process. See id.
[¶13] “‘[C]irculator’ means a person who solicits signatures for written
petitions, and who must be a resident of this State and whose name must
appear on the voting list of the city, town or plantation of the circulator’s
residence as qualified to vote for Governor.” Me. Const. art. IV, pt. 3. § 20.
A person thus does not meet the definition of a “circulator” for purposes of the
Maine Constitution unless and until that person’s name “appear[s] on the
voting list” in the municipality where the person resides as qualified to vote for
Governor. Id.
[¶14] By statute, petitions “may be circulated by any Maine resident who
is a registered voter acting as a circulator of a petition.” 21-A M.R.S. § 903-A.
A circulator is specifically required to execute an affidavit swearing, among

App. 15

8

other things, “[t]hat the circulator was a resident of the State and a registered
voter in the State at the time of circulating the petition.” Id. § 903-A(4)(C)
(emphasis added). To vote, a person must “have established and maintain a
voting residence in [a] municipality” and be registered to vote in that
municipality. 21-A M.R.S. §§ 111(3), (4), 112 (2020). Only a municipal registrar
can determine that a person is qualified to register as a voter in the
municipality, see 21-A M.R.S. § 121 (2020), and a person’s residency in that
municipality is a necessary qualification for registration, see id. § 111(3), (4),
112. “A change of residence is made only by the act of removal, joined with the
intent to remain in another place. A person can have only one residence at any
given time.” Id. § 112(2) (emphasis added).
[¶15] In sum, the Maine Constitution requires that a circulator be a
resident “whose name must appear on the voting list of the city, town or
plantation of the circulator’s residence as qualified to vote for Governor,”
Me. Const. art. IV, pt. 3. § 20; and the statutes require that a person be a resident
of a municipality to be registered to vote, see 21-A M.R.S. §§ 111(3), (4), 112(2),
121; see also 21-A M.R.S. §§ 161(2-A), 162-A (2020) (providing for registrars’
maintenance of voter registration information including address changes).
These provisions are unambiguous.

App. 16

9

[¶16] Even if the Maine Constitution were ambiguous, however, we
would reach the same conclusion based on the history surrounding the
adoption of the definition of “circulator.” Effective November 24, 1975, the
Maine Constitution was amended by legislative resolution approved by the
electorate to add the definition of “circulator” to article IV, part 3, section 20.
See Const. Res. 1975, ch. 2, approved in 1975. The Statement of Fact included
with the proposed resolution provided: “The signature-gathering process is
improved and tightened in several ways. Any registered voter, not just a person
who is one of the signers of a petition, may circulate petitions.” L.D. 188,
Statement of Fact (107th Legis. 1975) (emphasis added). The Legislature’s
Committee on the Judiciary had recommended the change: “The committee . . .
felt the circulator should be a registered voter. This was accomplished by
adding to this section a definition of a circulator requiring him or her to be a
resident of the state and a registered voter.” Report of the Judiciary Committee
on the Initiative and Referendum Process 14 (Dec. 2, 1974). These sources
clearly indicate that the Legislature contemplated that circulators would be
registered voters when they circulated petitions—not that they would become
registered voters after circulation but before submitting the petitions. The
Secretary of State’s interpretation of section 903-A is consistent with the
legislative history of article IV, part 3, section 20, and, if we discerned any

App. 17

10

ambiguity in the statute, we would defer to his reasonable construction of it.
See Reed, 2020 ME 57, ¶ 14, --- A.3d ---.
[¶17] Because we conclude that the Maine Constitution and statutes
require a petition circulator to be registered in the municipality of residence
when circulating a petition, we must next consider whether the court erred in
concluding that this constitutional and statutory requirement violated the First
Amendment.
B.

First Amendment
[¶18]

A person challenging the constitutionality of a legislative

enactment “bears a heavy burden of proving unconstitutionality[,] since all acts
of the Legislature are presumed constitutional.” Goggin v. State Tax Assessor,
2018 ME 111, ¶ 20, 191 A.3d 341 (quotation marks omitted). To overcome the
presumption of constitutionality, the party challenging a law must
“demonstrate convincingly” that the law and the Constitution conflict. Id.
(quotation marks omitted). “[A]ll reasonable doubts must be resolved in favor
of the constitutionality” of the enactment. Id. (quotation marks omitted).
[¶19] The First Amendment provides that “Congress shall make no law
. . . abridging the freedom of speech . . . .” U.S. Const. amend. I. The freedom of
speech “secured by the First Amendment against abridgment by the United
States, [is] among the fundamental personal rights and liberties which are

App. 18

11

secured to all persons by the Fourteenth Amendment against abridgment by a
State.” Meyer v. Grant, 486 U.S. 414, 420 (1988).
1.

Level of Scrutiny Applicable to Ballot-Access Regulations

[¶20] The circulation of petitions for a ballot initiative such as a people’s
veto constitutes “core political speech.” See Buckley, 525 U.S. at 186 (quotation
marks omitted); Me. Taxpayers Action Network v. Sec’y of State, 2002 ME 64, ¶ 8,
795 A.2d 75 (quotation marks omitted). Although state regulations affecting
core political speech must ordinarily “be narrowly tailored to carry out a
compelling state purpose,” Me. Taxpayers Action Network, 2002 ME 64, ¶ 8, 795
A.2d 75 (quotation marks omitted), application of the strict scrutiny standard
has not always been required in cases involving the regulation of ballot access,
including cases involving the regulation of petition circulation, because “‘there
must be a substantial regulation of elections if they are to be fair and honest
and if some sort of order, rather than chaos, is to accompany the democratic
processes.’” Buckley, 525 U.S. at 187 (quoting Storer v. Brown, 415 U.S. 724, 730
(1974)); see Burdick v. Takushi, 504 U.S. 428, 430, 433 (1992) (reviewing a
Hawaii regulation prohibiting write-in voting); Anderson v. Celebrezze, 460 U.S.
780, 782-83, 788 (1983) (reviewing an Ohio regulation imposing an early filing
deadline for petitions to nominate an independent presidential candidate).
Unlike with other regulations of core political speech, an important—but not

App. 19

12

necessarily compelling—governmental interest in regulating ballot access may
outweigh the burden placed on even core political speech because of the need
for fairness and order in the democratic process. See Buckley, 525 U.S. at 187;
Burdick, 504 U.S. at 433-34.
[¶21] To ensure fairness and order, the United States Supreme Court has
therefore adopted a specific framework for cases involving the regulation of
ballot access that does not always require application of the strict scrutiny
standard. See Arizonans for Second Chances, Rehab., & Pub. Safety v. Hobbs, No.
CV-20-0098-SA, 2020 Ariz. LEXIS 279, at *24, --- P.3d --- (Sept. 4, 2020) (citing
Burdick, 504 U.S. at 434; Anderson, 460 U.S. at 789). This approach is in contrast
to the mandatory application of the strict scrutiny standard in reviewing
restrictions on core political speech—or content-based restrictions on
speech—that do not regulate ballot access. Cf. FEC v. Wis. Right to Life, Inc.,
551 U.S. 449, 455-56, 464-65 (2007) (applying strict scrutiny to review a
statute prohibiting certain corporate broadcasts to the electorate naming
political candidates); Cent. Me. Power Co. v. Pub. Utils. Comm’n, 1999 ME 119,
¶¶ 18-23, 734 A.2d 1120 (applying strict scrutiny to review restrictions on the
content of an electric transmission-and-distribution facility’s consumer
education materials). When a statute “does not control the mechanics of the
electoral process” and “is a regulation of pure speech,” the ballot-access

App. 20

13

framework will not apply. McIntyre v. Ohio Elections Comm’n, 514 U.S. 334,
344-45 (1995).
[¶22] Thus, unlike in Mowles v. Commission on Governmental Ethics
& Election Practices, 2008 ME 160, ¶¶ 1, 10-31, 958 A.2d 897, where we applied
strict scrutiny to review restrictions on the “pure speech” of campaign
advertisements,6 here we are reviewing a regulation regarding petition
circulation—a ballot-access regulation pertaining to the “mechanics of the
electoral process.” McIntyre, 514 U.S. at 345; see Buckley, 525 U.S. at 186-87;
Burdick, 504 U.S. at 433-34; Anderson, 460 U.S. at 789. As we stated in Mowles,
we ordinarily determine “whether the speech being regulated is core political
speech,” and apply strict scrutiny if it is. Mowles, 2008 ME 160, ¶¶ 15-17,
958 A.2d 897.

Ballot-access regulations such as regulations of petition

circulation, although regulating core political speech, see Buckley, 525 U.S. at
186; Me. Taxpayers Action Network, 2002 ME 64, ¶ 8, 795 A.2d 75, require us to
undertake a further inquiry to determine the appropriate level of scrutiny. See
Buckley, 525 U.S. at 186-87; Burdick, 504 U.S. at 433-34; Anderson, 460 U.S. at
789.

6 We concluded in Mowles that the regulations were subject to strict scrutiny both because they
regulated core political speech and because they placed content-based restrictions on that speech.
See Mowles v. Comm’n on Governmental Ethics & Election Practices, 2008 ME 160, ¶¶ 18-19, 958 A.2d
897.

App. 21

14

[¶23] Specifically, pursuant to the framework adopted by the Supreme
Court, to determine whether a ballot-access regulation governing the
“mechanics of the electoral process,” McIntyre, 514 U.S. at 345, violates the
United States Constitution, a court “must first consider the character and
magnitude of the asserted injury to the rights protected by the First and
Fourteenth Amendments that the plaintiff seeks to vindicate. It then must
identify and evaluate the precise interests put forward by the State as
justifications for the burden imposed by its rule.” Anderson, 460 U.S. at 789.
The court must both “determine the legitimacy and strength of each of those
interests” and “consider the extent to which those interests make it necessary
to burden the plaintiff’s rights.” Id.
[¶24]

When First Amendment rights “are subjected to severe

restrictions, [a] regulation must be narrowly drawn to advance a state interest
of compelling importance.” Burdick, 504 U.S. at 434 (quotation marks omitted).
In contrast, “when a state election law provision imposes only reasonable,
nondiscriminatory restrictions” on First Amendment rights, “the State’s
important regulatory interests are generally sufficient to justify the
restrictions.” Id. (quotation marks omitted); see also Timmons v. Twin Cities
Area New Party, 520 U.S. 351, 358-59 (1997). As we have stated, “there is no
litmus test for determining whether an election regulation imposes an

App. 22

15

impermissible burden on free speech, and states are accorded considerable
leeway in the regulation of the initiative process in order to promote their
legitimate state purposes.” Me. Taxpayers Action Network, 2002 ME 64, ¶ 8,
795 A.2d 75; see also Buckley, 525 U.S. at 192.
[¶25] We applied the analysis set forth by the Supreme Court in Anderson
and Burdick in Maine Taxpayers Action Network:
We agree with the Secretary, then, that requiring circulators
to correctly identify themselves in their oath and affidavit is
narrowly tailored to carry out the state’s reasonable interest in
locating circulators within or without the state’s borders. See, e.g.,
Burdick v. Takushi, 504 U.S. 428, 434, 112 S. Ct. 2059, 119 L. Ed. 2d
245 (1992) (stating that when “a state election law provision
imposes only ‘reasonable, nondiscriminatory restrictions’ upon the
First and Fourteenth Amendment rights of voters, ‘the State’s
important regulatory interests are generally sufficient to justify’
the restrictions” (quoting Anderson v. Celebrezze, 460 U.S. 780, 788,
103 S. Ct. 1564, 75 L. Ed. 2d 547 (1983)).
2002 ME 64, ¶ 20, 795 A.2d 75 (emphasis added).
2.

Courts’ Consideration of Circulator Registration Requirements

[¶26] The Supreme Court applied the Anderson/Burdick test in 1999 to
determine whether a registration requirement for petition circulators violated
the First Amendment.7 See Buckley, 525 U.S. at 193 (citing Timmons, 520 U.S. at

The Court noted that its opinion “is entirely in keeping with the now-settled approach that state
regulations impos[ing] severe burdens on speech . . . [must] be narrowly tailored to serve a
compelling state interest,” though it did not indicate that it was applying that standard, and Justice
Thomas concurred in the judgment but opined that strict scrutiny should have been applied. Buckley
v. Am. Const. L. Found., Inc., 525 U.S. 182, 192 n.12 (1999); id. at 206-09 (Thomas, J., dissenting).
7

App. 23

16

358 (summarizing the Anderson/Burdick test)).

Specifically, the Court

considered whether the State of Colorado’s concerns warranted the burden on
First Amendment rights that arose from a statutory requirement that initiative
circulators be registered voters. Id. The Court held that Colorado’s statutory
requirement violated the First Amendment. See Buckley, 525 U.S. at 192-97.
[¶27] The Court reached this holding after a trial at which an election
official testified that, although there were 1,900,000 registered voters in
Colorado, at least 400,000 eligible people—more than 17 percent of all eligible
voters—were not registered.

Id. at 193.8 The Court concluded that the

government had not presented “impelling cause” to require circulators to
register to vote to exercise their First Amendment rights by circulating
petitions. Id. at 197. The court held that the government’s asserted interests in
ensuring that circulators are not breaking the law and would be amenable to
the subpoena power were insufficient grounds for curtailing First Amendment
rights. Id. at 195-97. The Court considered in its analysis that, “given the
uncontested numbers,” the registration requirement “decrease[d] the pool of

Justice Thomas further opined that assessing the severity of burdens on core political speech to
determine the necessary level of scrutiny can lead to inconsistent results. Id. at 206-09 (Thomas, J.,
dissenting).
The Court noted that, given United States Census statistics, the numbers might be even higher.
Buckley, 525 U.S. at 193 n.15.
8

App. 24

17

potential circulators” and limited the number of voices that could convey the
message in favor of the petition. Id. at 194-95 (emphasis added). The Court
specifically relied on testimony of some of those eligible to vote that they had
chosen not to register as a form of protest. Id. at 196. As the Court’s opinion
demonstrates, the determination of the extent of an election regulation’s
burden on First Amendment rights is fact-intensive and may depend on broad
statistical evidence and direct testimony from those eligible to vote. See id. at
192-97.
[¶28] After the Court’s decision in Buckley, the United States District
Court for the District of Maine considered Maine’s requirement of voter
registration to serve as a circulator. See Initiative & Referendum Inst. v. Sec’y of
State, No. CIV. 98-104-B-C, 1999 WL 33117172 (Apr. 23, 1999). The court
concluded that, because it was undisputed on summary judgment that 98.8
percent of those eligible to vote in Maine were registered, the imposition on
First Amendment rights was minimal and the registration requirement,
although less compelling than a simple residency requirement, was sufficiently
compelling to justify the minor intrusion. Id. at *14-15.
[¶29] Unlike in Buckley and Initiative & Reform Institute, there has been
no trial or summary judgment motion to generate evidence for the trial
court’s—or our—consideration here. Cf. Buckley, 525 U.S. at 192-97; Initiative

App. 25

18

& Referendum Inst., No. CIV. 98-104-B-C, 1999 WL 33117172, at *1. Nor was
any independent claim joined that could produce the kind of crucial evidence
that is sometimes necessary to succeed in a First Amendment challenge in this
context. Cf. Libertarian Party of Va. v. Judd, 718 F.3d 308, 311-12 (4th Cir. 2013)
(reviewing a summary judgment entered in an action brought pursuant to
42 U.S.C.S. § 1983 (LEXIS through Pub. L. No. 116-158)9); Yes on Term Limits,
Inc. v. Savage, 550 F.3d 1023, 1025-27 (10th Cir. 2008) (reviewing a judgment
entered after an evidentiary hearing on a § 1983 claim).10 Such a record is vital,
as the briefs of the parties demonstrate, with both the Secretary of State and
Jones citing information from various sources concerning voter registration
statistics and patterns and speculating about voter behavior given Maine’s
registration procedures.11

Although section 1983 was amended after the Meyer decision, that amendment does not affect
our analysis here, and we cite to the current statute. See Federal Courts Improvement Act of 1996,
Pub. L. No. 104-317, § 309, 110 Stat. 3847, 3851.
9

We did consider a First Amendment challenge in an appeal from a Superior Court judgment
entered in an appeal from the Secretary of State’s decision in Hart v. Sec’y of State, 1998 ME 189, ¶¶ 1,
3-4, 715 A.2d 165, cert. denied, 525 U.S. 1139 (1999). That decision predates Buckley, however, and
the reasoning in Buckley persuades us that a factual record is often necessary to establish that a
restriction on petition circulators violates the First Amendment. Buckley, 525 U.S. at 192-97.
10

The Secretary of State indicates in his brief that 96 percent of those eligible to vote in Maine are
registered. Jones argues that this statistic is meaningless because that number does not represent
the number of residents who are registered in their current place of residence. The administrative
record, however, does not contain statewide statistical evidence.
11

App. 26

19

3.

Review of Maine’s Requirement of Registration in the Municipality
of Residence Before Circulation

[¶30] Here, the court was ruling only on a Rule 80C petition for review
of final agency action. Thus, the record presented to the trial court is not
extensive. We proceed to consider, based on the limited record, whether Jones
has shown that the requirement of registration in the municipality of residence
before circulating petitions violates the First Amendment. See Goggin, 2018 ME
111, ¶ 20, 191 A.3d 341.
a.

Character and Magnitude of the Burden on First Amendment
Rights

[¶31] On this record, we cannot conclude that “the character and
magnitude of the asserted injury” to First Amendment rights, Anderson, 460 U.S.
at 789, is severe. The only statistics available in the administrative record
pertain to this petition. It is undisputed that less than two percent of the people
who collected signatures for this specific petition were determined to have
been unregistered at the time they collected signatures. Cf. Bernbeck v. Moore,
126 F.3d 1114, 1116-17 (8th Cir. 1997) (holding that a circulator registration
requirement violated the First Amendment when the trial court had found,
based on undisputed evidence, that the number of individuals that petition
organizers could find “was grossly insufficient to the task” (quotation marks
omitted)). Unlike some of those who testified in Buckley, 525 U.S. at 195-96,

App. 27

20

the individual circulators whose petitions are in dispute here were not opposed
to registering to vote and indeed became registered voters in their
municipalities, albeit after they circulated the disputed petitions.

Thus,

although the effect of the signature collectors’ failure to timely register in their
new municipalities of residence may be severe in this case, we cannot say that
the burden of the registration requirement on the exercise of petition
supporters’ First Amendment rights is severe either as applied in this case or
more broadly in Maine. See Me. Taxpayers Action Network, 2002 ME 64, ¶ 29,
795 A.2d 75 (Dana, J., concurring) (“In the absence of any evidence to suggest
that Maine’s voter registration requirement presents a severe burden on the
right of free speech, I would uphold the voter registration requirement . . . .”).
b.

Interests Put Forward by the State

[¶32] We turn next to “the precise interests put forward by the State as
justifications” for the restrictions. Anderson, 460 U.S. at 789. The Secretary of
State has argued that the regulation is designed to enable him to (1) locate
circulators in the event that there are any questions of fraud or forgery,
(2) subpoena circulators if necessary, and (3) determine residency in Maine as
of the time of circulation without extensive factual inquiry. The argument as to
the first two reasons is not germane to this case. As long as a circulator
registers to vote in the circulator’s municipality of residence at some point

App. 28

21

before the petitions are submitted to the Secretary of State, see 21-A M.R.S.
§ 902 (2020), the Secretary of State would be able to locate and subpoena the
circulator after receiving the petitions. Cf. Me. Taxpayers Action Network, 2002
ME 64, ¶ 29, 795 A.2d 75 (Dana, J., concurring) (“Maine’s voter registration
requirement serves a purpose of providing a convenient and administratively
efficient means of identifying and locating circulators as part of the validation
process, if necessary, or to investigate potential misconduct.”).
[¶33]

This leaves only one other justification for the registration

requirement—the determination of the circulator’s Maine residency at the time
the circulator collects signatures. We determined in 1998 that the residency
requirement itself does not violate the First Amendment. See Me. Const. art. IV,
pt. 3, § 20; Hart v. Sec’y of State, 1998 ME 189, ¶ 13, 715 A.2d 165, cert. denied,
525 U.S. 1139 (1999) (“[A]ny interference with proponents’ right to unfettered
political expression is justified by the State’s compelling state interest in
protecting the integrity of the initiative process, and the residency requirement
set forth in the Maine Constitution is narrowly tailored to serve that
interest.”).12 Voter registration in Maine, which occurs at the local level, see

12 In Hart, which we decided before Buckley, we applied strict scrutiny without any citation to
Anderson or Burdick. Hart, 1998 ME 189, ¶ 13, 715 A.2d 165. The Supreme Court denied the petition
for a writ of certiorari in that matter after publication of the Buckley decision. See 525 U.S. 1139
(1999).

App. 29

22

21-A M.R.S. §§ 101, 121 (2020), is a simple13 and, more importantly, verifiable
way for the Secretary of State to determine a person’s residency in Maine at the
time of circulation of a petition—a consideration that was not discussed in
Buckley, 525 U.S. at 195-97. The Secretary of State has access to municipal
registrars and to the central voter registration system that they are required to
maintain. See 21-A M.R.S. § 161(2-A); see also Hart v. Gwadosky, No. AP-98-30,
1998 Me. Super. LEXIS 130, *14 (May 15, 1998) (“Ensuring that a circulator is
a resident is most easily accomplished by requiring that the [circulator] be a
registered voter.”). This efficient method of confirming circulator residency is
vital to the expedited review process that the Secretary of State must undertake
after the petitions are submitted. See 21-A M.R.S. § 905(1).
[¶34] The requirement that a circulator be registered in the circulator’s
municipality of residence while circulating a petition therefore imposes only
“reasonable, nondiscriminatory restrictions” on the First Amendment rights of
petition supporters for the purpose of ensuring compliance with the residency
requirement of the Maine Constitution. Burdick, 504 U.S. at 434 (quotation

The two-sided voter registration card used in Maine requires a Maine resident to provide the
municipality with only basic information regarding eligibility to vote; party affiliation, if any; and
residency and identifying information. See 21-A M.R.S. § 152(1) (2020) (specifying the contents of
an application to register as a voter); see also 21-A M.R.S. § 111 (2020) (requiring, for a person to
vote in a municipality, that the person be a United States citizen; be at least eighteen years of age;
reside in the municipality; be registered to vote in that municipality; and, for party caucuses,
conventions, or primaries, be a member of the party unless the party authorizes nonmembers to
vote).
13

App. 30

23

marks omitted). Thus, we conclude that the government’s interest is sufficient
to justify the restriction that the requirement places on petitioners’ First
Amendment rights. See Burdick, 504 U.S. at 434. The Superior Court erred in
concluding, on the record before it, that Jones had satisfied his burden of
overcoming the presumption of constitutionality. Goggin, 2018 ME 111, ¶ 20,
191 A.3d 341.
[¶35] We therefore vacate the judgment of the Superior Court in which
it vacated the Secretary of State’s decision as to the 988 signatures that it
determined were valid. Because our decision results in a deficit in the number
of signatures required for the people’s veto to be placed on the ballot, we do not
reach or consider the Committee’s arguments regarding other signatures that
it contends were improperly validated.
The entry is:
Judgment of the Superior Court vacated.
Remanded with instructions to affirm the
Secretary of State’s determinations that the 988
signatures contested on appeal to us are invalid
and that therefore an inadequate number of
valid signatures had been submitted to place the
people’s veto on the ballot. Mandate to issue
immediately.

App. 31

24

James G. Monteleone, Esq. (orally), and Matthew J. Saldaña, Esq., Bernstein
Shur, Portland, for appellants The Committee for Ranked Choice Voting et al.
Aaron M. Frey, Attorney General, and Phyllis Gardiner, Asst. Atty. Gen. (orally),
Office of the Attorney General, Augusta, for appellant Secretary of State
Patrick N. Strawbridge, Esq. (orally), Consovoy McCarthy PLLC, Boston,
Massachusetts, for appellees David A. Jones, et al.
Cumberland County Superior Court docket number AP-20-16
FOR CLERK REFERENCE ONLY

App. 32

MAINE SUPREME JUDICIAL COURT
Decision:
2020 ME 111
Docket:
Cum-20-227
Argued:
September 3, 2020
Decided:
September 8, 2020
Panel:

Reporter of Decisions

MEAD, GORMAN, JABAR, HUMPHREY, and HORTON, JJ.

DAVID A. JONES et al.
v.
SECRETARY OF STATE et al.
PER CURIAM
[¶1] On August 24, 2020, the Superior Court (Cumberland County,
McKeon, J.) entered a judgment on a petition for judicial review brought by
David A. Jones and others (collectively, “Jones”) to challenge a decision of the
Secretary of State. See 5 M.R.S. § 11001 (2020); 21-A M.R.S. § 905(2) (2020);
M.R. Civ. P. 80C. The court vacated the Secretary of State’s determination that
insufficient signatures had been collected to place on the November 2020 ballot
a people’s veto of An Act to Implement Ranked-choice Voting for Presidential
Primary and General Elections in Maine, P.L. 2019, ch. 539.
[¶2] Both the Secretary of State and intervenors The Committee for
Ranked Choice Voting and three individuals (collectively, “Committee”) have
moved to stay the execution of the Superior Court’s judgment pending their

App. 33

2

appeals to us from that judgment. The Committee argues that a stay of the
court’s judgment is automatically in place pursuant to Rule 62(e) of the Maine
Rules of Civil Procedure, and argues alternatively that, if there is no automatic
stay, we should enter an order staying the execution of the Superior Court’s
judgment because “the Superior Court decision erroneously and inadvertently
included at least 162 signatures that the Secretary’s tally of signature[] totals
failed to account.” The Secretary of State argues only that we should enter an
injunction in the form of a stay pursuant to Rule 62(g) in order to “preserve the
status quo or the effectiveness of the judgment subsequently to be entered.”1
Jones has filed an opposition to both motions, asserting that judgments entered
by the Superior Court on petitions for judicial review of final agency action are
not subject to the automatic stay pending appeal but rather are subject only to
the stay provisions of 5 M.R.S. § 11004 (2020), and that we should not order a
stay as a form of injunctive relief.

1

Rule 62(g) provides,
(g) Power of Reviewing Court Not Limited. The provisions in this rule do not
limit any power of the Superior Court or Law Court during the pendency of an appeal
to suspend, modify, restore, or grant an injunction or to make any order appropriate
to preserve the status quo or the effectiveness of the judgment subsequently to be
entered.

App. 34

3

[¶3]

Because we conclude that execution of the judgment is

automatically stayed upon appeal, we do not reach the arguments regarding
injunctive relief. We dismiss both motions to stay as moot.
[¶4] Rule 62 governs the stay upon appeal of proceedings in Maine
courts. It provides, in pertinent part,
(e) Stay Upon Appeal. Except as provided in subdivisions
(c) and (d) of this rule, the taking of an appeal from a judgment shall
operate as a stay of execution upon the judgment during the
pendency of the appeal, and no supersedeas bond or other security
shall be required as a condition of such stay.
M.R. Civ. P. 62.2 Thus, pursuant to Rule 62(e), the docketing of an appeal will
ordinarily operate as a stay of a trial court’s order, including with respect to an

2

The exceptions to the stay set forth in Rule 62(c) and (d) are as follows:
(c) Order for Immediate Execution. In its discretion, the court on motion may,
for cause shown and subject to such conditions as it deems proper, order execution
to issue at any time after the entry of judgment and before an appeal from the
judgment has been taken or a motion made pursuant to Rule 50, 52(b), 59, or 60; but
no such order shall issue if a representation, subject to the obligations set forth in
Rule 11, is made that a party intends to appeal or to make such motion. When an
order for immediate execution under this subdivision is denied, the court may, upon
a showing of good cause, at any time prior to appeal or during the pendency of an
appeal order the party against whom execution was sought to give bond in an amount
fixed by the court conditioned upon satisfaction of the damages for delay, interest,
and costs if for any reason the appeal is not taken or is dismissed, or if the judgment
is affirmed.
(d) Injunction Pending Appeal. When an appeal is taken from an interlocutory
or final judgment granting, dissolving, or denying an injunction, the court in its
discretion may suspend, modify, restore, or grant an injunction during the pendency
of the appeal upon such terms as to bond or otherwise as it considers proper for the
security of the rights of the adverse party.

App. 35

4

administrative appeal. See Doggett v. Town of Gouldsboro, 2002 ME 175, ¶ 6,
812 A.2d 256 (holding that an appeal to us from a municipal decision pursuant
to M.R. Civ. P. 80B “suspend[ed] the trial court’s authority over the matter and
stay[ed] the effect” of its remand to a municipality); cf. Hawkes Television, Inc.
v. Me. Bureau of Consumer Credit Prot., 462 A.2d 1167, 1169 (Me. 1983)
(dissolving an injunction that the Superior Court issued in a Rule 80B case while
the matter was automatically stayed pending appeal to us).
[¶5]

Jones has not filed a motion for immediate execution of the

judgment in the Superior Court.3 See M.R. Civ. P. 62(c). Jones urges us to
conclude, however, that the Superior Court, in vacating the Secretary of State’s
decision, entered an order “granting, dissolving, or denying an injunction”—a
decision that is not subject to the automatic stay pending appeal.

M.R.

Civ. P. 62(d), (e).4 Jones argues that M.R. Civ. P. 81(c) requires us to treat the

Nor has Jones otherwise sought to expedite matters at any time during the proceedings before
the Superior Court. We note that motions to the trial court pursuant to Rule 62(c) or (d)—which are
excepted from the automatic stay pending appeal—should precede any motion requesting that we
exercise our authority pursuant to Rule 62(g). See 3 Harvey & Merritt, Maine Civil Practice § 62:8 at
320 (3d, 2019-2020 ed. 2019) (“Resort to the appellate court under this Rule should only be sought
when relief cannot be had in the trial court.”); see, e.g., Senty v. Bd. of Osteopathic Examination
& Registration, 594 A.2d 1068, 1069 (Me. 1991) (issuing a stay, after the trial court refused to do so,
of an injunction that required the issuance of a professional license and ordering an expedited
briefing schedule).
3

4 Jones also contends that “execution” of a judgment means only the execution of a judgment for
money damages, citing M.R. Civ. P. 69. Rule 62 does not, however, reference Rule 69 as a limit on the
meaning of “execution,” and the exceptions included in Rule 62(a)—for injunctions and
receiverships, as well as orders “relating to the care, custody and support of minor children or to the

App. 36

5

Superior Court’s order as an injunction. Rule 81(c) does not, however, provide
that all administrative appeals are to be construed as seeking injunctions;
rather it establishes new procedural mechanisms to replace outmoded writs:
Scire Facias and Certain Extraordinary Writs Abolished. The
writs of scire facias, mandamus, prohibition, certiorari, and quo
warranto are abolished. Review of any action or failure or refusal
to act by a governmental agency, including any department, board,
commission, or officer, shall be in accordance with procedure
prescribed by Rule 80B. Any other relief heretofore available by
any of such writs may be obtained by appropriate action or motion
under the practice prescribed by these rules. In any proceedings
for such review or relief in which an order that an agency or other
party do or refrain from doing an act is sought, all provisions of
these rules applicable to injunctions shall apply.
M.R. Civ. P. 81(c). The rule thus makes clear that (1) the named writs are
abolished, (2) the Rules supply a new process for judicial review of
governmental agency actions, and (3) any other relief previously available
pursuant to the now-abolished writs may be obtained under the Rules of Civil
Procedure, with any request for a party to do or refrain from doing an act to be
brought as a claim for injunctive relief. See id.; see also 3 Harvey & Merritt,
Maine Civil Practice §§ 81:8-81:12 at 569-74 (3d, 2019-2020 ed. 2019). The
rule does not, however, convert every Rule 80B or Rule 80C action into a claim

separate support or personal liberty of a person or for the protection of a person from abuse or
harassment”—make clear that all types of judgments not listed are subject to the automatic stay of
execution pending appeal. M.R. Civ. P. 62(a), (e).

App. 37

6

for injunctive relief, and certainly in the matter before us, the test for granting
an injunction has not been applied.5 Jones never requested injunctive relief,
and the court did not reach findings of irreparable injury, balance any
competing harms, or consider the public interest. See Bangor Historic Track,
Inc. v. Dep’t of Agric., Food & Rural Res., 2003 ME 140, ¶ 9, 837 A.2d 129.
[¶6] Jones and the Secretary of State further contend that the Superior
Court’s judgment is not automatically stayed because in National Organization
for Marriage v. Commission on Governmental Ethics and Elections Practices,
2015 ME 103, 121 A.3d 792, we held that an agency’s decision was not stayed
pending appeal. We were not asked in that case to review whether the Superior
Court’s judgment was automatically stayed. Id. ¶¶ 1-2. Rather, we held there
that the agency’s decision was not a “judgment” as defined in M.R. Civ. P. 54(a),
and that the petition for judicial review filed in the Superior Court did not
effectuate an automatic stay of the agency’s decision, nor did an appeal from

An injunction may be issued only if the court finds that “(1) [the moving party] will suffer
irreparable injury if the injunction is not granted; (2) such injury outweighs any harm which granting
the injunctive relief would inflict on the other party; (3) [the moving party] has a likelihood of success
on the merits (at most, a probability; at least, a substantial possibility); and (4) the public interest
will not be adversely affected by granting the injunction.” Bangor Historic Track, Inc. v. Dep’t of Agric.,
Food & Rural Res., 2003 ME 140, ¶ 9, 837 A.2d 129. To the extent that we have exercised the authority
to suspend an injunction entered in a Rule 80C matter, we have done so when the trial court found
in the plaintiff’s favor on an independent claim for injunctive relief. See Senty, 594 A.2d at 1069
(staying an injunction that required the issuance of a professional license and ordering an expedited
briefing schedule); see also M.R. Civ. P. 62(g).
5

App. 38

7

that Superior Court decision to us. See Nat’l Org. for Marriage, 2015 ME 103,
¶¶ 10-11, 121 A.3d 792. Rather, to obtain a stay of an agency’s decision, a party
must request the stay from the agency or, if such a request is impracticable or
is denied by the agency, from the Superior Court. 5 M.R.S. § 11004; Nat’l Org.
for Marriage, 2015 ME 103, ¶ 11, 121 A.3d 792.
[¶7] Here, because the “petition for review shall not operate as a stay of
the final agency action pending judicial review,” 5 M.R.S. § 11004, and no stay
was granted by the Secretary of State or the Superior Court, the agency action
has plainly not been stayed. An automatic stay of the Superior Court’s judgment
is in place, however, while the present appeal is pending. See M.R. Civ. P. 62(e).
[¶8] Thus, the motions to stay seek relief that Rule 62(e) already
provides, and we dismiss them as moot. See In re Involuntary Treatment of K.,
2020 ME 39, ¶ 9, 228 A.3d 445 (stating that “issues are moot . . . when they have
lost their controversial vitality, and [a] decision would not provide . . . any real
or effective relief” (quotation marks omitted)).
[¶9] Because an automatic stay is in place, the motions to stay are
dismissed.
The entry is:
Motions to stay dismissed.

App. 39

8

James G. Monteleone, Esq. (orally), and Matthew J. Saldaña, Esq., Bernstein
Shur, Portland, for appellants The Committee for Ranked Choice Voting et al.
Phyllis Gardiner, Esq. (orally), Office of the Attorney General, Augusta, for
appellant Secretary of State
Patrick N. Strawbridge, Esq. (orally), Consovoy McCarthy PLLC, Boston,
Massachusetts, for appellees David A. Jones, et al.
Cumberland County Superior Court docket number AP-20-16
FOR CLERK REFERENCE ONLY

App. 40

SUPERIOR COURT
CIVIL ACTION
DOCKET NO. AP 20-0016

STATE OF MAINE
CUMBERLAND, ss.

DAVID A. JONES et. al.,
Petitioner
ORDER

V.

SECRETARY OF STATE,
Respondent
and
COMMITTEE FOR RANKED
CHOICE VOTING, et. al.
Intervenors

OVERVIEW
Backers of a petition (Petitioners) seek to place a "peoples' veto" referendum on
the ballot that would repeal legislation submitting presidential elections in Maine to
ranked choice voting.

The Petitioners appeal the Secretary of State's ("Secretary")

decision that there were an insufficient number of valid signatures to place the issue on
the November 2020 ballot. The Secretary opposes the appeal. The Committee for Ranked
Choice Voting and others ("Committee"), all proponents

of ranked choice voting,

intervened and oppose the appeal as well. Neither the legality nor the desirability of
ranked choice voting is at issue in this appeal. The issue here is whether the Secretary
improperly invalidated or validated petitions and individual signatures seeking to place
the issue on the ballot. Upon review of the facts and law governing this case, and in light
of the Secretary's Amended and Supplemental Determinations, this court finds that the
Secretary improperly invalidated the signatures collected by Monica Paul and Michelle

1
App. 41

Riordan. As such, the court finds that the Petitioners collected enough signatures to place
their petition on the November 2020 ballot and hereby reverses the Secretary's decision.
FACTS
The Petitioners are supporters of a petition that seeks to place on the November
ballot a "people's veto" of Pub Laws 2019, CH. 5389 known as "An Act to Implement
Ranked Choice Voting for Presidential Primary and General Elections in Maine" ("Act").
The Secretary approved the timely application for a people's veto referendum petition.

Paynev. Sec'y of State, 2020 ME 110, _
The proponents

A.3d _.

of the people's veto set out to collect the 63,067 signatures

necessary to put the veto on the ballot. On June 15, 2020, the proponents filed a number
of petitions with the Secretary that contained a total of 72,512 signatures; at which time
the Secretary began the process to determine whether the petitions and the signatures
complied with the Maine Constitution and Maine law. On July 15, the Secretary issued
his Determination

of the Validity of a Petition for People's Veto of (the Act)

("Determination").

The Secretary invalidated 11,178 signatures, leaving the petition with

only 61,334 signatures and short of the required number of signatures.
The Petitioners brought a timely appeal raising a variety of issues challenging the
Secretary's Determination.

The Committee intervened. After a conference with counsel

on August 3, the court remanded the matter to the Secretary without objection. On
remand, the Secretary was to reconsider its invalidations in light of the additional
evidence provided by both the Petitioners and the Committee. The Secretary issued an
Amended Declaration on August 12. The Secretary invalidated 11,299 signatures, leaving
a shortfall of 1,775 signatures. Amended Declaration, pp. 8-9.
Because the court must decide the issue by August 24, the parties agreed to an
accelerated briefing schedule.

On Friday, August 21, the court held a status conference
2

App. 42

with counsel. The court, with the agreement of the Secretary and the Petitioners, but over
the objection of the Committee, remanded this case back to the Secretary for further
findings with respect to the petitions from the Town of Turner and allowed supplemental
briefs to be filed on August 24.
The Petitioner's original challenge focuses on several categories of ballots that the
Secretary determined to be invalid in an effort to overcome the shortfall.
1. Town of Turner

809 signatures

2. Circulators Riordan and Paul

988 signatures

3. Town of Freeport

160 signatures

4. Notary Pettengill

24 signatures

5. Materially altered signatures

12 signatures

1

1993 signatures
On August 24, the Secretary issued a Supplement to its Amended Determination
("Supplement").

This Supplement reinstated 809 signatures that were previously

invalidated. There are now 10,490 invalidated signatures, a shortfall of 966 signatures.
Altogether, the Petitioner now challenges enough qualifications to get over the
966-signature gap.

In addition, the Intervenor objects to the validation of the 809

signatures from the Town of Turner.
ANALYSIS
When the Superior Court hears an appeal of a decision by a state agency, the court
may:
A.

Affirm the decision of the agency;

1 The Secretary noted in a supplemental memorandum that the Secretary invalidated 306 signatures on the Monica
Paul petition, not 262 as previously calculated.

3

App. 43

B. Remand the case for further proceedings, findings of fact or conclusions of law
or direct the agency to hold such proceedings or take such action as the court
deems necessary; or
C. Reverse or modify the decision if the administrative
conclusions or decisions are:

findings, inferences,

1) In violation of constitutional or statutory provisions;

2) In excess of the statutory authority of the agency;
3) Made upon unlawful procedure;
4) Affected by bias or error of law;

5) Unsupported by substantial evidence on the whole record; or
6) Arbitrary or capricious or characterized by abuse of discretion.
5 M.R.S. § 11007. The court reviews the evidence for findings not supported by the
evidence, errors of law, or abuse of discretion. Knutson v. Dep't of Sec'y of State, 2008 ME
124, 'l[8, 954 A.2d 1054.
"The Secretary of State is the constitutional officer entrusted with administeringand having expertise in-the

laws pertaining to the direct initiative process." Reedv. Sec'y

of State, 2020 ME 57, 'l[ 18, _

A.3d _.

The court must defer to the Secretary's

interpretation of the relevant law as long as it is reasonable. Id. The court can only reverse
the Secretary on the grounds of abuse of discretion if the Secretary "exceeded the bounds
of the reasonable choices available to him." ForestEcologyNetwork v. LURC, 2012 ME 36,
'l[ 28, 39 A.3d 74. With respect to the Secretary's findings of fact, the court must examine:
"the entire record to determine whether, on the basis of all the
testimony and exhibits before it, the agency could fairly and
reasonably find the facts as it did. [The reviewing court] must
affirm findings of fact if they are supported by substantial
evidence in the record, even if the record contains
inconsistent evidence or evidence contrary to the result
reached by the agency. The 'substantial evidence' standard
does not involve any weighing of the merits of
evidence. Instead it requires [the court] to determine whether
there is any competent evidence in the record to support a
finding. Administrative agency findings of fact will be
vacated only if there is no competent evidence in the record
to support a decision. Any [c]ourt review that would
redecide the weight and significance given the evidence by
the administrative agency would lead to ad hoc judicial
4

App. 44

decision-making, without giving due regard to the agency's
expertise, and would exceed [the court's] statutory
authority."

Friendsof LincolnLakesv. Bd. of Envtl. Prat., 2010 ME 18, 'l['l[ 13-14, 989 A.2d 1128(internal
citations omitted).

When an agency concludes that the party with the burden of proof

failed to meet that burden, the reviewing court will reverse that conclusion only if the
record compels a contrary conclusion to the exclusion of any other inference. Kelley v.

Me. Pub. Employees.Ret. Sys., 2009 ME 27, '1[16,967 A.2d 676; seealso ConcernedCitizens to
Save Roxbury v. Bd. Of Envtl. Prat., 2011 ME 39, 'l[ 24, 15 A.3d 1263. On appeal, it is the
Petitioner's burden to show that there is insufficient evidence for the Secretary to make
its determination.

Town of Jay v. AndroscogginEnergy, LLC, 2003 ME 64, 'l[ 10, 822 A.2d

1114.
The right to the "people's veto" is provided by the Maine Constitution. ME Const.,
Art. IV, Part 3d, § 17. The Constitution provides that a proponent of the referendum must
obtain the signatures of ten percent of the number voting in the last gubernatorial
election. Id. The Maine Constitution also imposes requirements

on the conduct of a

petition drive that are designed to maintain the integrity of the process. Id. §20. These
limits govern those who circulate the petitions, known as "circulators," the notaries who
take the circulator's oath upon completion of the petitions, and the municipal officials
who certify the petitions. Id. Once this process is completed, the petitions are then sent
to the Secretary so that he may determine if they are valid.
Relevant to this case, the Constitution requires that petitions be deposited with the
town officials "by the hour of 5:00 p.m., on the 5th day before the petition must be filed
in the office of the Secretary of State, or, if such 5th day is a Saturday, a Sunday or a legal
holiday, by 5:00 p.m., on the next day which is not a Saturday, a Sunday or a legal
holiday."

Id. § 20. In this case, the petitions needed to be submitted by 5 P.M. on June
5

App. 45

10. The Maine Constitution also requires that a "Circulator must appear on the voting
list of the city, town or plantation of the circulator's residence as qualified to vote for
Governor ... " Id.
In addition to the Constitution,

the Legislature has issued a set of statutory

guidelines that overly the constitutional framework outlined above. Again, relevant to
this case, the statute states that a notary must take the circulator' s oath and sign the
petition. 21-A M.R.S. § 902. "After the petition is signed and verified in this manner. the
petition must be submitted to the registrar for certification." Jd.(emphasis supplied). In
addition, any notary providing the circulator's oath must not have a conflict of interest.
A conflict of interest would include "providing
compensation,

any other services, regardless

to initiate the direct initiative or people's

veto referendum

of

.. .. or

... providing services other than notarial acts, regardless of compensation, to promote the
direct initiative or people's veto referendum for which the petition is being circulated."
21-A M.R.S.A. § 903-E.
A failure to comply with the rules on the part of a circulator or notary can lead to
disqualification of an entire petition.

Maine Taxpayer'sAction Network v. Sec'y of State,

2002 ME 64, 'l[ 13, 795 A.2d 75, 80. Although there are not enough decisions from the Law
Court arising from the initiative and peoples veto process to fully flesh out the contours
of the Secretary's discretion when validating or disqualifying petitions or signatures,
there are a few decisions that shed some light. In Reedv. Secretaryof State, the Secretary
validated a sufficient number of signatures to allow an initiative regarding the CMP
power line to go forward. Reed,2020 ME 24, 'l[ 10, _

A.3d _.

The Law Court deferred

to the Secretary's decision to distinguish between those petitions where the oath was
administered

when the notary did not have a conflict and those when it did have a

conflict. Reed,2020 ME 57, 'l['l[ 20-22, _

A.3d _.
6
App. 46

In Maine Taxpayer'sAction Network,

the Law Court upheld the Secretary's decision to invalidate the petitions on the grounds
that the circulator was not a resident of Maine and that he falsely stated his identity. Me.

TapayersAction Network, 2002 ME 64, 'I[ 6, 795 A.2d 75. In McGeev. Secretaryof State, the
Law Court found that the Secretary had no discretion to accept applications three days
after the statutory deadline. 2006 ME 50 '1[16,896 A.2d 933.2 In Paleskyv. Secretaryof State,
the Court found the Secretary could disqualify petitions when the oath was not taken
from the circulator, when signatures were not on the approved petition form, and when
the signatures had not been approved by the registrar. 1998 ME 103, 711 A.2d 129. The
Law Court has not decided whether the Secretary has the discretion to qualify petitions
or signatures after determining that any violations are de minimus. Reed, 'I[ 13, n. 12, _
A.3d

I.

PETITIONERS OBJECTIONS
The Petitioners make five categories of objections to the Secretary's Amended

Determination.
A. Disqualification based on the circulators who were not registered to vote until
after they collected their signatures.
The Secretary disqualified several signatures because the circulators were not
registered voters at the time they collected the signatures. Amended Determination, pp.
1-2. In their brief, the Petitioners only raise the 988 signatures collected by Monica Paul
and Michelle Riordan.

Petitioner's Brief, pp. 6-7,13-16.

Although the Amended

Determination, p. 8, identifies 1175 signatures in this category, the court cannot rule on
the remaining signatures by other circulators. The other parties have assumed they were
abandoned have had no reason to address petitions submitted by any other circulator.

In McGee, the court then found the statutory deadline inconsistent with the Maine Constitution and ultimately
confmned the Secretary's decision. 1]39.

2

7

App. 47

them. The total number of signatures considered after clarification by the Secretary is
988.
In Hart v. Secretaryof State, the Law Court addressed the constitutionality of the
residence requirement that is confirmed in the same provision in the Maine Constitution
that requires the circulators to be registered voters. 1998 ME 189, 'I[ 13, 715 A.2d 165. The
Court" acknowledged that the initiative petition process involves political discourse that
is protected by the first amendment of the federal constitution." Id. 'I[ 9. The Court found,
however, that the Maine Constitution's requirements that the circulators be residents
served a compelling state interest in the regulation of initiative process. Id. The court
noted, but did not address, the voter registration requirement at issue here and observed
that voter registration issue was on its way to the U.S. Supreme Court. Id. 'I[ 8. The issue

Action
with respect to a circulator' s voter registration arose again in Maine Ta.,-rpayers
Network,but was not addressed by the majority. 2002 ME 64, '['I[ 22-29, 795 A.2d 75.
The United States Supreme Court did address the voter registration requirement
and ruled that Colorado's requirement that circulators to be registered to vote is
unjustified and infringes on the first amendment rights of the circulators to conduct core
political speech. Buckleyv. AmericanConst.LawFound.,525 U.S. 182, 197 (1999). The Court
did not find that the state interest of fraud detection or administrative efficiency justified
the requirement.

Id. at 192. The Court determined that requiring circulators to be

registered would eliminate a large pool of registered voters. Id. at 194-95. The Court's
other reason is that some voter eligible adults have a politically based objection to
registering to vote. Id. at 195.
In Initiative & ReferendumInstitute v. Secretaryof State, the Magistrate for the US
District Court for the District of Maine applied Buckley to the issue of whether the
requirement that circulators be registered voters was constitutional. 1999 U.S. Dist. Lexis
8

App. 48

22071 (D. Me. April 23, 1999). The IRI court noted that the Buckli:ydecision was largely
based on the numbers of eligible voters in Colorado who were not registered, thus
reducing the number of available circulators. Id. at **43-46. Evidence in IRI, on the other
hand, suggested that the percentage of unregistered voters in Maine is low. Id. at *45.
The court concluded that the State had a compelling interest in locating circulators when
investigating the validity of petitions and that requiring voter registration advanced that
goal. Id. at *46. The IRI court noted, however that the State's interest in requiring voter
registration

was modest, but that the plaintiffs in that case had offered nothing in

response. Id. at *48. Justice Dana makes similar arguments in his concurrence in Maine
795 A.2d 75.
TaxpayersAction Network,2002 ME 64, '11'1127-29,
Both IRI and Justice Dana's concurrence are distinguishable from the case at hand.
Here, the State disqualified the petitions because the circulators collected signatures prior
to registering to vote.

The circulators were registered to vote at the time the petitions

were submitted to the Secretary of State, satisfying the State's interest to the extent voter
registration makes it easier to locate circulators in the event an investigation is necessary.
The Secretary has not persuaded

the court that the temporal

voter registration

requirements, which do not appear either in the Maine Constitution or in statute, "are
justified by a compelling state interest and are narrowly tailored to serve that interest."

Wyman v. Secretaryof State, 625 A.2d 307, 311 (Me. 1993). Therefore, the court would
reverse the Secretary's disqualification

of the 988 signatures collected by circulators

Riordan and Paul, and challenged by the Petitioner in his Brief, on the grounds those
circulators were not registered to vote at the time they collected the signatures.

5

M.R.S.A. § 11007(C)(l).
The Secretary objects to this argument, stating that the constitutionality of these
provisions was not properly raised. The Court finds it was adequately pied. SeePetition
9

App. 49

at 'I[ 34. The Secretary notes correctly that the issue of constitutionality was not originally
briefed. However, the court raised the issue with the parties at its August 21 conference
and the parties had time to brief it. Therefore, the court has chosen to address it.

B. Disqualifications based on petitions filed with the Town of Turner
The Secretary originally disqualified petitions from the Town of Turner because
they were not submitted before the deadline imposed by the Maine Constitution.

On

remand, the Secretary had four days to review a large volume of material. Secretary's
Brief, p. 4. An investigator unsuccessfully attempted to call the Turner Oerk. Although
the Secretary felt as though confirming the Clerk's affidavit by phone was an important
part of the investigation, time constraints prevented it from happening. Choosing to rely
on the date stamps on the petitions, the Secretary chose not to accept the Clerk's affidavit
when making the Amended Determination.
Upon further review of the Secretary's Amended Determination, the court was
concerned that potential mistakes of a municipal official, as opposed to a notary or
circulator selected by the proponents, had disqualified the petitions. The Secretary had
insufficient time to complete tasks it determined ware necessary to investigate these
signatures. Therefore, the court determined it was necessary to remand the case a second
time so that the Secretary could make additional findings towards a determination of
whether the Turner petitions were submitted on time. 5 MRSA § 11007(4)(B).3 The court

3

The court would have preferred to wait until the briefing was completed and then remanded. Unfortunately, it was
impossible. The parties treat the statutory August 24 deadline as a hard deadline. 21-A MRSA § 905(2). By late
Wednesday, August 19, all the parties had submitted an initial brief. Although the court had not yet decided any of
the issues raised, at that point, the court was concerned that the Turner signatures might decide the case. Given that
the reply briefs were not due to the end of the day on Friday August 21 and a decision due on August 24, the court
decided on the remand after a discussion with the parties on Friday morning and after the Secretary indicated a
willingness to follow up with the Turner town clerk.

10
App. 50

notes that the Secretary and the Petitioners agreed to the remand, but the Committee did
object.
After the second remand, the Secretary has determined that the 809 signatures
found on petitions certified by the Town of Turner were submitted on time. As such, the
Secretary has Supplemented its Amended Determination, concluding that only 10,490
signatures are invalid, rather than the previous number of 11,299.
The Court finds, for the reasons stated in the Supplemental Amended Declaration,
that the evidence supports the Secretary's decision.
C. The Secretary's decision not to disqualify the petition from the Town of

Freeport was not an abuse of discretion.

The Secretary disqualified four petitions from the Town of Freeport on the
grounds the town's registrar notarized the petitions the day after they were certified.
Amended Determination p. 3. The Secretary determined it ran afoul of the of the
requirement in 21-A MRSA § 902 that the circulator's oath be completed before the Town
certifies the petitions. A properly administered circulator's oath has been described as a
critical step to prevent fraud in the petition process. Maine TaxpayersAction Network,2002
ME 64, 'l[ 13, 795 A.2d 75.
The court defers to the Secretary's interpretation of the statute with respect to the
timeliness requirement.

The Secretary's disqualification of the petition was a reasonable

choice and the court is not permitted by law to second guess that. The Freeport petitions
are distinguishable from the other Towns at issue in that the late circulator's oath came
on a different day. The Secretary's use of that distinction in disqualifying the Freeport
petitions instead of the petitions where the town clerk completed the oath on the same
day as accepting the petitions was within the Secretary's discretion and was not arbitrary
or capricious.

11
App. 51

The Petitioner argues that she was not actually done her certification on March 5
and should have dated the certification on March 5 instead of March 4. That would be a
second date change since the petition was certified. The court notes that the burden of
selecting a notary both to complete the oath who does not have a conflict and to get the
oath properly completed before the submission of petitions rests on the proponent of the
referendum. The Petitioners cannot blame the Town for accepting petitions that have not
had the oath completed. The Secretary does not have to accept shifting date changes,
particularly after submission the notary's an incorrect affidavit as part of this litigation.
The court's decision is also based on Secretary's obligation and right to manage
the petition process. Maine Taxpayer'sAction Network,2002 ME 64, 'l[ 12, n.8, 795 A.2d 75
(Secretary has "plenary power to investigate and determine the validity of petitions").
The Secretary had to review over 9000 petitions bearing over 70,000 signatures. As part
of the management of the process, which is necessary to assure the correct number of
qualified signatures are counted, the Secretary has to rely on contemporaneous dates and
correctly dated petitions. The burden is on the proponents to manage their end of the
process so that the initial submissions are correct. Although the Secretary does listen to
efforts to correct errors on remand, it is in the Secretary's discretion to rely on the
document in its original form instead of as purportedly corrected. In this case, the notary
submitted an affidavit that was incorrect and the Petitioners have asked the Secretary to
consider changing first the date of notarization from March 5th to March 4th and then
the date of certification from March 4th to March 5th. It is well within the Secretary's
discretion to rely on the original dates and the law does not allow the court to weigh
competing evidence to overturn the Secretary's position.
D. The Secretary's disqualification of 24 signatures where notary Kim Pettingill
failed to date her notarization.

12
App. 52

The same principle applies here. Here, a notary left dates off of petitions totaling
24 signatures.

The obligation is on the proponents to get it right the first time. On the

original remand the Petitioners provided an affidavit where the notary averred she could
reproduce the dates using her log. The Secretary has the discretion to rely on the petitions
themselves rather than the subsequent explanation.
After the Amended Declaration was completed, the Petitioners provided a log that
they argued supported the notary's position.

The Petitioners point out that they had

limited time to put together their evidence. Everyone, including the court, is operating
under strict time limits. That is why the burden is on the proponents to get the petitions
notarized correctly.

It also provides less chance to open the process up to outside

interpretation or ad hoc interpretation by the courts.
To rule otherwise could endlessly extend the process. That cuts both ways. For
example, the Committee has objected to the Secretary's decision to accept the explanation
of notaries who also work for the Republican Party. The Committee argued that the
petitions should be excluded. The Committee would likely want further investigation
into the statements in those affidavits. In managing the investigation, however, it is the
Secretary who determines when the evidence is sufficient for the Secretary to choose
between two competing versions. The court could not, and sees no reason to, disturb the
Secretary's decision on this issue either.
E. The Secretary's invalidation of 12 signatures as materially altered was within its
discretion.
The Secretary invalidated 12 signatures were the dates had been changed. The
Secretary points out that he invalidates those signatures only if the obliterated date is
undetectable or clearly invalid. The modifications were initialed by the voters to confirm
that it is the voter who made the change.

The Secretary's concern is fraud and the

13
App. 53

Secretary is uniquely positioned to determine which alterations pose a risk of fraud and
which do not. The invalidations were within the Secretary's discretion.

II.
THE INTERVENORS' OBJECTIONS TO PETITIONS VALIDATED BY THE
SECRETARY
The Intervenors

object to several categories of signatures

that the Secretary

qualified.

A. The Secretary had the discretion to validate the signatures found on petitions
that were certified the same day in which the circulator's oath was administered.
The Secretary validated the signatures on certain petitions that were certified by
the registrars in the towns of Boothbay, Sidney, Dexter, and Warrant, even though the
circulator's oath was or may have been administered
petition.

On remand, the Secretary determined

petitions

were administered

prior to the submission of the

that the circulator's oath on these

on the same day that the petitions were submitted.

Amended Determination at pg. 2-4.
Title 21-A section 902 governs the verification and certification of petitions.
Generally, a circulator must "sign the petition and verify by oath or affirmation before a
notary public" that the signatures on the petition are legitimate. Then, "after the petition
is signed and verified in this manner, the petition must be submitted to the registrar for
certification ... " If a petition submitted to the registrar "[is] not signed and verified in
accordance with [section 902], the registrar may not certify the petition[) and is required
only to return the petitions."

The Intervenor argues that section 902 requires that the

circulator's oath be administered prior to the submission of the petition as a matter of
law. However, if the language of a statue is ambiguous, the court must defer to the
Secretary's interpretation if that interpretation is reasonable. Knutson, 2008 ME 124, '[ 9,
954 A.2d 1054.

14
App. 54

Here, the language of section 902 does not state that a petition submitted to the
registrar must be rejectedif the circulator' s oath has not been completed, only that the
registrar must return the petition. In response to this, the Secretary has taken the position
that a petition's signatures are valid so long as the circulator' s oath is administered on
the same day that the petition is submitted to the registrar. As such, there is no explicit
language in section 902 that makes the Secretary's interpretation is unreasonable.

The

Secretary is also in the best position to determine whether the same day oath
administration is sufficient to prevent fraud.

The Secretary also has the discretion to

determine the scope of its investigation. Therefore, the decision to validate the signatures
certified by the towns of Boothbay, Sidney, Dexter, and Warren was well within the
Secretary's broad discretion.
B. The Secretary had the discretion to validate the signatures found on the
petitions notarized by Kim Pettengill.
The Secretary validated the signatures on petitions that Kim Pettengill notarized
even though Pettengill had been reimbursed for certain tasks completed on behalf of the
petition campaign. Although the Secretary found that Pettengill had in fact performed
these tasks, those tasks were "de minimis" and did not disqualify Pettengill from
administering the circulator's oath. Amended Determination at pg. 6. The Secretary's
factual findings must be affirmed if "they are supported by substantial evidence in the
record, even if the record contains inconsistent evidence or evidence contrary to the result
reached by the agency." ConcernedCitizens to Save Roxbury v. Bd. Of Envtl. Prat., 2011 ME
39, '[ 24, 15 A.3d 1263. Nevertheless, the Intervenor's argue that the Secretary's finding
of de minimis impact are contrary to law and therefore does not fall within the Secretary's
discretion to resolve factual disputes.

15
App. 55

Here, there is ample evidence to support the de minimis determination made by
the Secretary. The Secretary, after considering evidence submitted by Petitioners, agreed
with the Petitioners that the expenses reimbursed to Pettengill were mere "errands of
convenience"

and therefore did not give rise to any concerns regarding

bias or

impropriety.

This factual determination is well within the Secretary's discretion.

The

Secretary must be able to determine, as an evidentiary matter, whether or not certain
actions are in fact de minim us if he is to carry out his duties effectively. To hold otherwise
would strip the Secretary of his fact-finding power.

This result is simply inconsistent

with the broad discretion afforded to the Secretary. Therefore, the Secretary's decision to
validate the signatures on petitions notarized by Pettengill was well within his discretion.
C. The Secretary had the discretion to validate signatures on petitions notarized by
members of the Maine Republican Party State Committee.

The Secretary validated signatures found on petitions that were notarized by
members of the Maine Republican Party State Committee. Affidavits submitted by the
Petitioners showed that the Republican Party State Committee made no expenditures to
notarizes who are registered with the State Committee and made no official action with
regard to this particular citizen initiative. Similar to the conclusion reached above, such
a factual and evidentiary

determination

is squarely within the Secretary's broad

discretion. Therefore, the Secretary had the discretion to validate the signatures found
on the petitions notarized by members of the Maine Republican Party State Committee.
While the court recognizes that this issue is of concern, the court defers to the Secretary's
conclusion, which is supported by substantial evidence in the record.

D. The Secretary had the discretion to validate signatures on petitions that were
notarized and certified by the same town registrar.

16

App. 56

The Intervenor argues that the Secretary should have invalidated the petitions that
were both notarized and certified by the same town registrar. This argument does not
appear to raise any ambiguity in the law.

Therefore, given the Secretary's broad

discretion in the citizen initiative process, the Secretary had the discretion to validate the
petitions that were notarized and certified by the same town registrar and the court sees
no need to second guess that decision. It makes sense that a circulator, looking for a
notary unlikely to have a conflict of interest, would go to the local town office.
CONCLUSION
In order for the court to overturn the Secretary's decision, the court must require
the Secretary to validate 966 signatures that had been disqualified (after the Secretary
reversed it's decision on the Town of Turner petitions). After the Secretary revised the
number of signatures invalidated in relation to Monica Paul, the total that are at issue in
respect to the voter registration issue is 988. With the Court's decision with respect to
those signatures, the Petitioners now have enough signatures. Therefore, the Secretary's
decision that the proponents

failed to provide the required number of signatures is

REVERSED. 5 M.R.S.A. § 11007(C).

This Order is incorporated

on the docket by reference pursuant to M.R.Civ.P.

79(a).
DATE:

Th~mas R. McKean
Justice, Maine Superior Court

17
App. 57

